Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



  MASSACHUSETTS MEDICAID
PAYMENTS TO NEWTON HEALTH
CARE CENTER DID NOT ALWAYS
 COMPLY WITH FEDERAL AND
   STATE REQUIREMENTS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                       August 2012
                                                      A-01-12-00013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Newton Health Care Center (Newton) is a Massachusetts certified Medicare and Medicaid
nursing home located in Newton, Massachusetts.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Newton in
accordance with Federal and State requirements from January 2006 through April 2012.

SUMMARY OF FINDING

Massachusetts Medicaid payments to Newton did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to
Newton by the amount of beneficiaries’ cost-of-care contributions from resources, such as Social
Security and pensions. As a result, the State agency’s Federal claim was overstated by a total of
$28,116 ($16,278 Federal Share). We attributed the incorrect Medicaid payments to clerical and
billing errors.




                                                  i
RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $28,116 from Newton and refund the Federal share of
       $16,278 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

NEWTON HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Newton agreed with our finding. Newton’s comments
are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS ............................................2

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          NEWTON HEALTH CARE CENTER COMMENTS .......................................3

          STATE AGENCY COMMENTS ........................................................................3

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO NEWTON HEALTH CARE CENTER BY
             CALENDAR YEAR

          B: NEWTON HEALTH CARE CENTER COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Newton Health Care Center (Newton) is a Massachusetts certified Medicare and Medicaid
nursing home located in Newton, Massachusetts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Newton in
accordance with Federal and State requirements from January 2006 through April 2012.

Scope

For the period January 2006 through April 2012, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Newton’s procedures for reviewing accounts and reporting overpayments to the
Medicaid program.

We performed fieldwork during June 2012 at Newton in Newton, Massachusetts; the State
agency in Boston, Massachusetts; and the CMS Regional Office in Boston, Massachusetts.

                                                1
Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Newton officials to identify credit balances in the accounting records that
       were potentially overpayments,

   •   reviewed patient accounts to determine whether overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

Massachusetts Medicaid payments to Newton did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to
Newton by the amount of beneficiaries’ cost-of-care contributions from resources, such as Social
Security and pensions. As a result, the State agency’s Federal claim was overstated by a total of
$28,116 ($16,278 Federal Share). We attributed the incorrect Medicaid payments to clerical and
billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.

UNADJUSTED NURSING HOME PAYMENTS

The State agency made 56 overpayments to Newton from January 2006 through April 2012 (see
Appendix A). Specifically, the State agency did not adjust its Medicaid payments to Newton by
the amount of beneficiaries’ cost-of-care contributions from resources, such as Social Security
and pensions.


                                                2
               An Example of a Medicaid Overpayment for One Beneficiary

   Mrs. P was a patient at Newton during May 2010. Based on her other resources, the State
   agency calculated Mrs. P’s cost-of-care contribution to be $700 a month. The State agency
   determined that the nursing home was entitled to a monthly payment of $4,800. Because of
   Mrs. P’s $700 cost-of-care contribution, the State agency was responsible for only $4,100
   of the $4,800 nursing home costs. However, the nursing home received a total of $5,500
   ($4,800 from the State agency and $700 from Mrs. P), because the State agency’s computer
   system did not adjust the payment amount to take into consideration Mrs. P’s cost-of-care
   contribution. Thus, the nursing home received an overpayment of $700 ($5,500 minus
   $4,800) for Mrs. P’s care for the month of May.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Newton for the period January 2006 through April 2012 was overstated by a total of $28,116
($16,278 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 56 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $28,116 from Newton and refund the Federal share of
       $16,278 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

NEWTON HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Newton agreed with our finding. Newton’s comments
are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               3
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO NEWTON HEALTH CARE
                 CENTER BY CALENDAR YEAR




         Calendar     Number of         Total
          Year       Overpayments   Overpayments

           2006           6            2,758

           2007           4             959

           2008           4             171

           2009           17           6,252


           2010           14           11,461


           2011           6            4,883


           2012           5            1,632


         TOTAL            56          $28,116
                         APPENDIX B: NEWTON HEALTH CARE CENTER COMMENTS

                                                                                                            617.969 .4660
. 2lO1 Washin gton Street
  Newton , MI\ 02462                             Newton

                                                 Health Care Cente r
                                                                                                        Fax 617.964.4622




              07/17/12

              Michael J Armstrong 

              Regional Inspector General for Audit Services 

              Department of Health & Human Services 

              Office of Inspector General 

              Office of Audit Services 

              Region 1 

              John F. Kennedy Federal Building 

              Boston, MA 02203 


              Re: Report Numb er A-Ol-12-00013

               Dear Mr. Armstrong,
                                                                                      Payments to
               I have received and reviewed the draft report entitled, Massachusetts
                                                                                  l and State ,
               Newto n Health Care Center Did Not Always Comply With Federa
                                                                                          .00 determined
               Requirements. I am in agreement with the total overpayment of $ 28,116
                                                                                      Office of Inspector
               by the Performance Audit conducted in June and July of 20 12 by the
                                                                        have been  returne d (Please see
               General. However, $1571.25 of the said overpayments
               attached).
                                                                                       yments:
               During the Audit there were several issues which resulted in the overpa

                         1) Recent MMQ change
                         2) Patient Paid Amounts not on file when initial billing performed
                         3) Adjustment billings not processed .Qy several Hospices
                                                                                       State processing
               As brought to the attention of the Auditor during the review there were
                                                                                     encountered when
               issues that caused these overpayments and additional issues that were
               trying to return these overpayments.
                                                                                        .75 overpayments
                I appreciate your assistance in helping us return the remaining 26,544
                                                                                           MMIS system
                to the State. I do feel that many of the issues encountered when the new
                                                                       are now runnin g smooth ly.
                was rolled out in May 2009 have been corrected and
                                                                                              1-2721.
                If you have any additional questions please feel free in calling me at 617-83

                Sincerely,
                :A--~/0
                Andre w Grimes 

                Administrator

                Newto n Health Care Center 

                                          APPENDIX C: STATE AGENCY COMMENTS

                                      The Commonwealth of Massachusetts 
                                        MassHealth
                                  Executive Office of Health and Human Services 

                                                 Office of Medicaid 

                                               One Ashburton Place 

                                                Boston, MA 02108 
                                               JUDYANN BIGBY, M.D. 

 DEVAL 1. PATRICK 

     Governor 
                                                                                                       Secretary 


TIMOTHY P. MURRAY 
                                                                                              JULIAN J. HARRIS, M.D. 

 Lieutenant Governor 
                                                                                              Medicaid Director 




                        July 25, 2012

                        Michael J. Armstrong
                        Regional Inspector General, Audit Services
                        HHS/OIG/OAS
                        Region I
                        JFK Foderal Building
                        Boston, MA 02203

                        RE: Audit Report No: A-01-12-00013

                            Dear Mr. Armstrong:

                        Thank you for the opportunity to review and comment on Draft Audit Report No: A-01-12-00013
                        "Massachusetts Medicaid Payments to Newton Health Care Center Did Not Always Comply
                        with ·Federal and State Requirements".

                                        Our responses to the report's specific recommendations are as follows:
                        Recommendation:
                        1) Collect overpayments totaling $28,116 from Newton and refund $16,278, the Federal
                           share of these overpayments, to CMS on the next quarterly CMS-64.

                        Response: We are in agreement with this finding and will follow the procedures described in
                        state Medicaid regulations at 130 CMR 4501.~7 to collect the overpayments from the provider.
                        Under 130 CMR 450.237, the provider has a-aue process right to contest the overpayment,
                        including the right to request an adjudicatory hearing and judicial review.

                        MassHealth will need the OIGs working papers identifying the specific claims in order to
                        undertake collection of the overpayments, notify Newton and if required, defend the
                        overpayment amounts should Newton contest the overpayment notice. If Newton does not
                        contest the overpayment collection or does not prevail in contesting this overpayment,
                        MassHealth will ensure that the EOHHS' Federal Revenue Unit will return the Federal share on
                        the appropriate CMS-64.

                        Recommendation:
                        2) Continue agency efforts to ensure that Medicaid overpayments to nursing homes continue
                           to be identified, collected and refunded.

                        Response: MassHealth is in agreement with this recommendation and will ensure that periodic
                        reviews and audits continue to 'be conducted to identify, collect and refund overpayments .

                        Sincerely;


                    I
                (       Medicaid Director
                \ ...., /
